*'---

2n "

No*

-u-

ORIGINAL
IN THE
SUPREME COURT OF THE UNITED STATES

Kevin Deon Loggins Sr.,

filed
JUL 19 2021

— PETITIONER

(Your Name)
vs.
State of Kansas,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Court of Appeals for the St-al-p nf lTangac

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kevin D. Loggins Sr. Nr>

(Your Name)
HCF PO BOX 1568

(Address)
Hutchinson. Kansas 6750A

(City, State, Zip Code)
N/A

(Phone Number)

1
QUESTION(S) PRESENTED

WHETHER THE KANSAS STATE COURT FINDING THAT PETITIONER SENT­
I.
ENCE IS NOT AN ILLEGAL SENTENCE, A ABUSE OF DISCRETION REPUGNANT TO
THE DUE PROCESS CLAUSE OF THE UNITED STATES CONSTITUTION 14TH AMEND­
5
MENT PROTECTIONS IN SENTENCING PHASE?. 1.
WHETHER THE KANSAS STATE COURTS WITHHOLDING OF ITS DISPARITY
II.
IN SENTENCE BENEFITS FROM PETITIONER, AMOUNT TO THE DENIAL OF EQUAL
PROTECTIONS OF THE LAW, THUS REPUGNANT TO THE 14TH AMENDMENT OF THE
U.S.C.A.? ;
10
WHETHER PETITIONER REMAINING IMPRISONED ON CRIMES COMMITTED
III.
,BY CODEFENDANTS, THAT KANSAS. STATE ,COURTS HAVE LONG SINCE RELIEVED
OF THE PUNISHMENT IMPOSED, BASED UPON FALSE & UNTRUE INFORMATION,
(ABUSE OF DISCRETION) AND AFOUL TO THE FUNDAMENTAL RIGHT TO DUE
PROCESS OF THE LAW, EQUAL PROTECTION OF THE LAW AND RIGHT TO A
SPEEDY TRIAL, RENDER THE SENTENCE A FUNDAMENTAL MANIFEST MISCARRI27
AGE OF JUSTICE?

i

LIST OF PARTIES

p] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
U.S. Court of Appeals for the Tenth Circuit, Case No. 20-3007 &
20-3009.
Kansas Supreme Court Petition for review, Case No. 95 CR 1859
(Denial for Writ of Habeas Corpus).
PETITION FOR THE GREAT WRIT OF HABEAS CORPUS,pursuant to 28 U.S.C.
2241, U.S. SUPREME COURT, Case No.
"(To be Supplied by the Court)

ii

TABLE OF CONTENTS
1

OPINIONS BELOW

2

JURISDICTION.................. ................... ..........................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE.........................................................

4
5-36

REASONS FOR GRANTING THE WRIT.......................................

36-38

CONCLUSION

INDEX TO APPENDICES

APPENDIX A:: Court of Appeal For The State of Kansas, 18 119,888 A

APPENDIX B : Petition for review denial (Kansas Supreme Court)

APPENDIX C: Transcript of Posttrial motions and Sentencing

APPENDIX D: Jury Trial Transcript Vol.-( 2. )

APPENDIX E: Bench Trial Transcript (95 CR 1616)

APPENDIX F: Transcript of Opening Statements, (Jury Instruction)
and closing arguments
APPENDIX G: Lab Report (Stephine Lyons)
■APPENDIX H: Letter from Clerk on Resentencing Tran •

i

of David

Upchurch.
APPENDIX I: COA Memorandum and order Appeal No.
APPENDIX J: Jury Instruction No. 12
APPENDIX K Transcript of waiver of Jury Trial Case No 95 CR 1616

iii

• <

APPENDIX L: Partial Transcript of Preliminary Examination
APPENDIX M: Direct Appeal, COA Opinion, Appeal No. 77,106/77,107
APPENDIX
APPENDIX
APPENDIX
APPENDIX

N:
0:
P:
Q:

State
State
Court
Court

v. Buggs, (Kansas Supreme Court Caselaw)
v. Fisher, (Kansas Supreme Court Caselaw)
of Appeals Memorandum & Order, Appeal No. 94,723-A
of Appeals Memorandum & Order, Appeal No. 10l,4i5-A

APPENDIX R: Upchurch v. Bruce, Case No.

3\U-ffcS
(10th Cir. 2002)

APPENDIX S: Upchurch v. Bruce, 333 F.3d.
APPENDIX T: Messer v. Roberts, (10th Cir. COA Caselaw)

iv

TABLE OF AUTHORITIES CITED

CASES
State v. Kirkpatrick, 286 Kan. 329, 351 (2008) i.

PAGE NUMBER
5

Mathews v. Eldridge, 424 U.S. 319, 335 (1976) !: 1

5

Gonzales, 911 F. Supp. at 126
Zineermore v. Burch, 494 U.S. 113, 125 (1990)
Gardner v. Florida, 430 U.S. 349, 358 (1977)
State v. Palmer, 37 Kan. App. 2d 819 Syl: P 4 (2007)

5
5
6

State v. Easterling, 289 Kan. 47 (2009)
Blakely v. Washington, 542 U.S. 296 (2004)
Earle v. McVeigh, 91 U.S. 503
Renaud v. Abbott, 116 U.S. 277
State, v. Goering, 225 Kan. -755, Syl. P 9,(19-79)
State v. Ward, 292 Kan. 541, Syl. 3, (2012)
Spencer, 291 Kan. 807
STATUTES AND RULES
K.S.A 22-3504(1) !
K.S.A 21-471G(d)(11)

6
6
9
10
. 10
11
11
11

5
14
15
17, 27, 36
17
17
18

K.S.A. 21-4710U)
K.S.A. 22-3203
Fed. R. Crim. P. 13
K.S.A. 22-3202(1)
K.S.A. 22-3204

OTHER

Limitation of Judicial Activism in Criminal Trials, 33 Conn. L. rev.
22
243, 273-74 (2000)
30
47 Am. Jur. 2d Judgments 489
30
Restatement (Second) Judgments 26(1) (1980)
33
W. LaFava & A. Scott, Criminal Law, Syl. 6.8, at 590
17
Blackfs Law Dictionary (6th ed.) (Join)
v

CONTINUED TABLE OF AUTHORITIES CITED
State v.
State v.
State v.
Concrete

Sweat, 30 Kan. App. 2d 756, 772 (2002)

11
11

Smith, 254 Kan. 144 £1993)
17
Ralls, 213 Kan, 249, 256-57 (1973)
Pipe & Prods, v. Constr. Laborers Pension Trust, 113 S.Ct.
19
• 2264
20
Upchurch V. Bruce, Case No. 01-CV-3196-DES
21
McClesky v. Zant, 499 U.S. 467
22
In re Murchison, 349 U.S. 133 (1953)
U.S. v . Leuth, 807 F. 2d 719, 727 (8th--Cir. 1986)
Application of Boykins, D.C.N.Y, 165 F. Supp. 25, 30
People v. Eddington, 201 Cal. App. 2d 524, 20 Cal. Rptr 122-124
Roger v. Gibson, 173 E.3d 1278, 1289 (1,0th Cir. 1999)
Babineaux v. Judiciary Commission, La., 341 So.2d 396, 400
Hope v. Pelzer, 536 U.S. 730 (2002)
Collier, 263 Kan. 632
State v. Higby, 210 Kan. 554 (1972)
Browning 826 F.2d at 345
Kenner v. Comm1r,' 387 F.2d 689, 691 (7th Cir. 1968)
United States v. Williams, 790 F.3d 1059 (10th Cir. 2015)
State v. Cramer, 17 Kan. app. 2d 623, 635 (1992)
State v. Turley, 17 Kan. App. 2d 484, Syl. 2 (1992)
State v. Torrance, 22 Kan. App. 2d 721, 730 (1996)
Lloyd v. State, 672 P.2d 152, 155 (Alaska App. 1983)
Clay v. Dormine, 37 S.W. 3d 214 (Mo. 2000)
State v. Arnold. 81 Wash. App. 379 (1996)
Bledsoe v. State, 283 Kan. 81, 88-89, 91 (2007)
Trotter v. State, 288 Kan. 112 (2009)
State v. Buggs, 219 Kan. at 216
State v. Fisher, 257 Kan. at 78
Chatagnier, 27 Kan. App. 2d at 310-11
District of Columbia, Gould, 852 A.2d 50, 56 (D.C. 2004)
Messer v. Roberts, 74 F.3d 1009 (10th Cir. 1996)
vi

22
22
22
23
23
23
24
25
26
26
26
27
28
28
28
28
28
29
29
29
29
30
30
31

In re Winship, 397 U.S. 358, 363-64 (1970) j
U.S. v. Batts, 811 F.Supp. 625 (D. Kan. 1993)
United States v. Pope, 739 F.2d 289, 292 (7th Cir. 1984)

33
33
33

United States;v. Greer, 467 F.2d 1064, 1069 (7th Cir. 1974)
United States v. Tapia, 761 F.2d 1488, 1491-92 (11th Cir. 1985)

33
34
34

United State v. Landers, 484 F.2d 93, 94 (5th Cir. 1973)
Vachon v. New Hamshire, 414 U.S. 478
Adderly v. Florida, 385 U.S. 39
Gregory v. Chicago, 394 U.S. Ill
Thompson v. Louisville, 362 U.S. 199
Townsend v. Burke, 334 U.S. 736
State v. Taylor, 262 Kan. 471 (1997)
-

Longoria, 301 Kan. at 509
Certificate of Service

34
34
34
34
36
36
37
38

vii

.j

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ .] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
___________________ ________________;or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A - to the petition and is
[ ] reported at----------------- ---------------------------------- ------ * or’
[ ] has been designated for publication but is not yet reported, or,
[X] is unpublished.
court
The opinion of the —
to the petition and is
appears at Appendix
[ ] reported at-------- ---------------------- ---------------------------- or>
[ ] has been designated for publication but is not yet reported, or,
[ ] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date:-----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including:______
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix —A----[X] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
Marrh 1S
7091
fi
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
USCS Const. Amend. 14th 7
28 U.S.C. 455(a)
18 U.S.C. 1512(c)(1)
Sixth Amendment (Speedy Trial.Rights)

3

10, 27
19
22
16

STATEMENT OF THE CASE
In the Fall of 1995 petitioner was charged with the crimes of
robbing, kidnapping, aggravated burglary, aggravated sexual battery,
and criminal possession of a firearm of residential robberies of
two local drug houses in Wichita, Kansas,

Petitioner and two other

codefendants Mr. Jones and Mr. Upchurch was charged under a theory
of aiding and abetting. In District Case No. 95 CR 1616 petitioner
was charged as the principal on the criminal possession of a fire­
arm, and on District Case No. 95 CR 1859 as the principal of Agg.,
burglary and criminal possession of a firearm, and.Agg. kidnapping,
which was reversed and dismissed on direct appeal.
The same direct appeal panel acknowledged that the remaining
aggravated kidnapping which the state alleged Mr. Upchurch was the
principal on was n'ot a kidnapping a6 well 'but since c'ounsel argued
it wrong the panel upheld the conviction.
Despite the crimes was alleged to have occured only 6-days apart
and a District court judge (Clark Owens II) ordering the case con­
solidated for trial, the cases was tried apart, and reconsolidated
for sentencing. At sentencing the presiding judge calculated each
of the cases and each count in the criminal history when sentencing
in each case. Thus sentencing petitioner as a two time felon for
criminal history purposes in Case No. 95 CR 1859 and a three time
felon for criminal history in Case No. 95 CR 1616.
The Judge then made additional fact finding to run the cases
consecutive, ultimately sentencing petitioner to 678 months im­
prisonment irregardless of petitioner only having one juvenile ad­
judication prior to the convictions in the cases. In 2002 petitioner
filed a Motion to Correct an Illegal sentence pursuant to K.S.A.
22-3504(1). The district court (original judge) denied the motion
and the Kansas Court of Appeals upheld the denial.
In 2007 the original sentencing court resentenced codefendant
Mr. Upchurch and downward departed resentencing Mr. Upchurch to a
12 year sentence. Petitioner filed the current motion arguing the
enhanced disparity in sentences, abuse of discretion in the previous
motion, and the use of false & untrue information during the sent­
ences phase, and presence of a bias & prejudice judge at sentence.
The district Court summarily denied the motion, the Court of Appeals
upheld the district court, and the Kansas Supreme Court denied review.
4

REASONS FOR GRANTING THE PETITION
WHETHER THE KANSAS STATE COURT FINDING THAT PETITIONERS SENTI.
ENCE IS NOT AN ILLEGAL SENTENCE A ABUSE OF DISCRETION, REPUGNANT TO
THE DUE PROCESS CLAUSE OF THE UNITED STATES CONSTITUTION 14TH AMENDMENT~ PROTECTIONS IN SENTENCING PHASE?
Standard of review: "Whether a defendant’s due process rights were
violated is a question of law over which this court exercises un
limited review”. State v. Kirkpatrick, 286 Kan. 329, 351, 184 P.3d
247 (2008).
"In determing whether the procedures employed by the sentenc­
ing court conformed to minimal due process requirements, the Court
applies the four factors enuciated in Mathews v. Eldridge, 424 U.S.
319, 335, 47 L.Ed. 2d 18, 96 S.Ct. 893 (1976): "(1) the nature of
the individual interest at stake, (2) the risk of error inherent in
the present method of obtaining information, (3) the usefulness of
' additional procedural safeguards in securing accurate information,
and (4) the goverment’s interest in being free of fiscal and administrative burdens that provision of additional safeguards would
impose." Gonzales, 911 F. Supp. at 126.
"The Due Process Clause of the Fourteenth Amendment to the
United States Constitution prohibits a State’s depriving any person
of liberty without due process of law. It ’.contains a substantive
component that bars certain arbitrary, wrongful government actions
"regardless of the fairness of the procedures used to implement
them. t it Zinermore v. Burch, 494 U.S. 113, 125, 108 L.Ed. 2d 100,
110 S.Ct. 975 (1990).
Petitioner sought to correct the illegal sentence imposed in
the case pursuant to K.S.A. 22-3504(1), which provides:
"K.S.A. Supp. 22-3504(1) states that the court may correct an
illegal sentence at any time"
Petitioner demostrated to the Sedgwick County district court
and Kansas Court of Appeals that petitioners sentence was imposed
in violation of the Due Process Clause of the Fourteenth Amendment
because said sentence imposed was based upon false and untrue information. Said finding was additional fact finding by the sentencfound by the
ing court of factors not presented to the the jury nor
5

-jury.

Petitioner supported this agrument with federal authority,
commencing with a citation to Gardner v. Florida, 430 U.S. 349,
358, 51 L.Ed. 2d 393, 97 S.Ct. 1197 (1977), for the proposition
that a defendant is entitled to due process of law at sentencing.
Gardner was a death penalty case in which the jury recommended a
life sentence, but the trial judge sentenced the defendant to death,
relying in part on confidential information in the presentence re­
port which had not been disclosed to the defendant. In a plurality
decision, six members of this Superior Court voted to invalidate
’ the death senten’ce, albeit for differing reasons. Four of the just­
ices explicitly bases their decision, at least in part, on the ap­
plicability of the Due Process Clause to sentencings proceedings.
Both Kansas Court of Appeals and the Kansas Supreme Court agr ee that sentencing phase has due process protection. "The potent­
ial for depriving a defendant of his or her liberty at sentencing
would likewise mandate the applicability of due process limitations
at that critical stage of criminal proceedings." State v. Palmer,
37 Kan. App. 2d 819, Syl. P,4, 158 P.3d 363 (2007). Also see, State
v. Easterling, 289 Kan. 470 (2009).
FALSE & UNTRUE FACTORS RELIED UPON AT SENTENCE
At the conclusion of sentencing, the presiding Judge Rebecca
L. Pilshaw stated on the record the reason why theres a disparity
in the sentences imposed in petitioners case and co-defendant David
L. Upchurch sentenced the same day.
VOLUME -4, pg.-34 & 35

(Appendix-C).

Transcript of posttrial motions and sentencing
Page-(34), lines 21-25 & Page-(35), lines 1-17:
6

Pg-(34), lines 22-25
22. MR ZACHARIAS: Just as I understood the Court's
22. order, sentence in 1616 is to be consecutive to 1859?
24. THE COURT: That is correct. And I want to
25. point out, I did not do that in Mr. Upchurch's case; and I
Continued Page-(35), lines 1-17:
1. do want to make the record very clear why I have
2. distinguished between the sentences that I imposed on
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.

Mr. Upchurch and the sentence that I imposed on
Mr Loggins.
I consider Mr. Loggins to be the leader in this
situation. The targets that were selected in each of the
jury trial and the bench trial were people that were
personally known to Mr. Loggins. One, in fact, was a very
close neighbor of Mr. Loggins. I consider him the leader
of these.
Certainly Mr. Upchurch's behavior and conduct
was worthy of the sentence that I imposed, but I felt that
he was more of a follower of Mr. Loggins, and that is my
reason for the disparity in sentences. It has
nothing to do with anything that occured during the trial
or the fact that Mr. Loggins exercised his right to a
trial.
The State Prosecutor never asserted a Leadership role theory

to the jury, in its complaint/information nor arguments in the case.
In neither of the cases did the alleged victims asserted that they
personally knew petitioner, In Case No. 95 CR 1859 (jurytrial) the
alleged victim Daron Green testified that he only encountered petitioner once prior to the incident. See Transcript of Jury Trial, Vol.15, pg-5, lines 4-25 and pg.-6, lines 1-5. (Appendix-D)
In Case No. 95 CR 1616, the alleged victims testified that
petitioner was only known because he use to talk to her daughter
and thats how she knew hmssvoice.
7

-Transcript of Bench Trial, Vol.-3, pg.-44, lines 1-5 and pg.-52,
lines 14-25. The allege victim never testified to ever personally
knowing Petitioner, and her daughter never testified to knowing
petitioner or ever talking to him. (Appendix-E).
Neither petitioner nor, nor any of the co—defendants admitted
nor testified that petitioner was the leader in the crimes. The
States case was that all defendants was equal participants in the
case . See Transcript of Partial transcript of jury trial (Opening
statements, Reading of the instructions, and Closing Arguments,)Vol.16, pg.-29, lines 13-25 and pg.-30, lines 1-16. (Appendix-F) .
In both cases the State omi’tted to the court'and jury that in
both cases, both residents was know drug houses to law enforcement.
In Case No. 95 CR 1616 (Benchtrial) the residences was a known Weed
house. In Case No. 95 CR 1859 (Jurytrial) the residence was a known
Crack Cocaine house. Petitioner sought to add Transcript of Mr.
Upchurch resentencing to the record on appeal, and Lab reports from
Case No. 95 CR 1616. The Transcript of Resentencing would have estab­
lished that the robbery in Case No. 95 CR 1859 and 1616 was both
motivated by drug addiction, and the lab reports would have estab­
lished that robbery consisted of crack cocaine in which the alleged
victim? Stephanie Lyons was‘the only finger print found thereon.
See

Appendix-( G ) .
The Clerk of the District court alleged that itcould not locate

either of the documents. See Appendix-( H ). Petitioner sought to
subsitute the record on appeal. See

Appendix-(H), pg!s-(2-“5 ).

Thus, the record is void of any evidence supporting the imposition that Petitioner was the leader in the crimes or that petitioner was personally known to any of the defendants.
8

In Blakely v. Washington, 542 U.S. 296 (2004), this Superior
Court reiterated the long standing principles concerning additional
fact-finding during the sentence phase. The Court quoted: "the "truth
of every accusation" against a defendant "should afterwards be con­
firmed by the unanimous suffrage of twelve of his equals and neigh­
bours," 4 W. Blackstone, Commentaries on the Laws of England 343
(1769), and that "an accusaction which lacks any particular fact
which the law makes essential to the punishment is ... no accusat­
ion within the requirements of common law, and it is no accusation
in reason," 1 J.

Bishop, Criminal Procedure syl 87, p. 55(2d ed.

1872). "These 'principles have been acknowledged b’y courts and treat­
ises since the earliest days of graduated sentencing; we compiled
the relevant authorities in Apprendi, 530 U.S., at 476-483, 489490, n 15, 147 L.Ed. 2d 435, 120 S.Ct. 2348; id., at 501-518, 147
L.Ed. 2d 435, 120 S.Ct. 2348. (Thomas, J., concurring), and need
not repeat them here."
In the case at bar, the sentencing court (Judge) made the un­
true and false accusation that petitioner was "The leader" and that
he was "personally known to the victims" essential to the punish­
ment . Based off the courts own findings the only reason she im­
posed the consecutive sentences in petitioners case is because of
the additional fact-finding that was never presented to the jury.
If not for the additional fact-finding petitioners sentence
would have been significantly different. As stated by this Court
in the Gardner v. Florida, case Due Process Clause, prohibits a
sentence based upon false and untrue information. The fact that
in this case, the information used was not presented to the jury
nor even required to meet any standard of reliability compounds
9

-the issue. Also the fact that said information was not alleged in
the PSI, nor prior to sentence, the defense was not allowed the op­
portunity to test or contest its reliability. This fact renders the
sentence afoul to the

Due Process Clause.

This Superior Court has long since held, "Every person is en­
titled to an opportunity to be heard in a court of law upon every
question involving his rights and interest, before he is affected
by any judicial decision on the question." Earle v. McVeigh, 91 U.S.
503, 23 L.Ed. 398, also see, Renaud v. Abbott,

116 U.S. 277, 29 L.

Ed. 629, 6 S.Ct. 1194.
In the case at bar neither, of these principles was complied

,

with, the information (False & Untrue Information) was not present­
ed until after petitioners right to liberty was affected by the
sentencing courts decision.
Neither the district nor the court of appeals answered this
issue, wherefore the Ends of Justice will best be served if this
Superior Court grant the Writ and answer this due process claim.
II. Whether the Kansas state courts withholding of its disparity
in sentences benefits from petitioner, amount to the denial of
Equal Protection of the Law, thus repugnant to the 14th Amendment
of the U.S.C.A.?
USCS Const. Amend.

14, USCS Const. Amend.

14, syl. 1

Sec. 1. (Citizens of the United States)
"All persons born or naturalized in the United States, and
subjected to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privi
lege or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of the law; nor deny to any person
within its jurisdiction the equal protection of the laws.
(Emphasis added)
10

Standard of review:
Disparity in sentences is reviewed on appeal under a abuse of
discretion, thus subjected to unlimited review, "The discretion in
imposing sentences which is lodged with a court is not boundless,
but a judicial discretion. It is a discretion limited to sound judgment to be exercised, not arbitrary, but with regards to what is
right and equitable under the circumstances. State v. Goering, 225
Kan. 755, Syl. P 9, 594 P.2d 194 (1979).
Discretion is abused if no reasonable person could take the
view of the district court, if the district court ruled based on
error of law, or if it ruled based on an error of fact. State v.
Ward, 292 Kari. 541, Syl. 3, 25'6 P.3d 801 (2011); cert. denied 132'
S.ct. 1594,

182 L.Ed. 2d 205 (2012) "With regard to whether a miti-

gating or aggravating factors found by the sentencing court " can
case,"
ever, as a matter of law, be substantial and compelling in any
our review is de novo. Spencer, 291 Kan. 807.
This Court should find a "substantial disparity" between the
sentences occured, meaning a difference not explained by the re­
spective criminal histories or some other relevant consideration.
rev. deniSee, State v. Sweat, 30 Kan. App. 2d 756, 772, 48 P.3d 8,
ed 274 Kan. 1118 (2002).
The Kansas Supreme Court in State v. Smith, 254 Kan. 144, 864
P.2d 709 (1993), addressed this issue concerning disparity of sentencing between co—defendants. It was held:
"Generally, "disparity in sentences of codefendants does not
amount to abuse of discretion where the trial court considers
the individual characteristics of the defendant being sentenc
ed, the harm caused by that defendant, and the prior criminal
conduct of that defendant." Syl. P 4.
11

"A trial judge is not bound to sentence a defendant to
equal to or shorter than the sentence given his or her
dant. When a defendant receives a longer sentence than
dant and the reason therefor appear in the record, the
imposed will be tested on appeal against a standard of
of discretion." Syl. P 5.

a term
codefen­
his codefen­
sentence
abuse

As the record reflects, the sentencing court (Judge) relied
upon untrue and false information to reach the original disparity
in the case. Thus leading the court to impose a sentence beyond
the jury's verdict in the case,called for. There was a substantial
disparity when viewing the sentence in compliance with the standard
issued in the Smith case

concerning 1.) Individaul characteristics

of the defendants; 2.) the harm caused by the defendants; and 3.)
prior crimin’al conduct of the ’ defendants.
In both the Jurytrial (95 CR 1859) and Benchtrial (95 CR 1616),
the State prosecution and victims alleged that Mr. Upchurch was the
aggressive defendant. The State Prosecution* alleged that Mr. Upchurch
struck the victims in both cases, that Mr. Upchurch is the defendant
that kidnapped the female victim in the Jurytrial (95 CR 1859) and
that Mr. Jones is the defenedant that committed the Aggravated Sexual battery in the jurytrial.
Thus when comparing the harm inflicted by the defendants ac­
cording to the states case its as follows:
Case No. 95 CR 1859:
Petitioner (Loggins): Princip&l of, Aggravated burglary, Criminal
possession of firearm.
Codefendant (Upchurch): Principal of, Kidnapping of Jessica Green,
Aggravated Robbery of Jessica Green, Aggravated burglary.
Codefendant (Jones): Principal

of, Aggravated Sexual Battery of

Jessica Green, Aggravated Robbery of Daron Green, Aggravated burglary.
12

t •

Case No. 95 CR 1616:
Codefendant (Upchurch), Principal of Aggravated Robbery of Mr.
Larkins.
Codefendant (Jones), Aider and abettor of Agg. Robbery of Mr.
Larkins and Ms. Lyons.
Petitioner (Loggins),

Principal of Agg. Robbery of Ms. Lyons and

criminal possession of a firearm.
In the previous claim of disparity in sentences, petitioner
argued the original disparity resulted in petitioner receiving a
sentence that was 20-plus years greater than Mr. Upchurch, and approximately' 50-years greater -than Mr. Jones. The state courts al.leged that there was not enough information before it to rule upon the disparity claim. See Appendix-( I ) , pg (7)(para • J -6) .
Neither the district court or court of appeals acknowledged
that on April 18th, 1996 that the current crimes of conviction,
Case No. 95 CR 1616 and 95 CR 1859 was the cases in which petition­
er was being sentenced upon. The sentence court relied upon State
v. Roderick,

259 Kan.

107 (1996), as authority to allow counting

each count in each case as criminal history to enhance the sentence
in each case. The Roderick case was subjected to the 1994 Sentenc­
ing guideline, after the 1993 version which contained sentencing
event language, was amended to remove said language.
Roderick plead to three different cases on the same date
and at sentencing the 1994 version permitted the court to cal—
culate each of the cases against the other in criminal history.
In 1995 the Kansas Legislature again changed the Sentencing guideline, to add K.S.A. 22-3203 (Consolidated cases) to prevent the
13

this action in cases under the new version. Thus once joined together
in a single complaint/information or multiple informations joined
together for trial, must be excluded from criminal history comput­
ation. The legislature did not draft the statute holding that a
defendant has to actually go to trial to reap the benefits of K.S.A
22-3203, simply that the cases be join for trial.
Likewise, K.S.A. 21—4710(d)(11) excludes the use of of any
conviction where the prior felony provides an element of the cur­
rent offense, or which enhances the possible penalty for the cur­
rent crime. In the case at bar both situations is applicable. 92JV-1548 was utilize as an element to establish the Criminal posses­
sion of a firearm, See Appendix—(J), thus enhancing the crime of
pession of a firarm from a misdemeanor to a felony (Criminal possession of a firearm). The prior court held that, State v. Vontress ,
266 Kan. 248, 259 (1998) was authority on petitioners claim.
However, petitioner challenges the conclusion drawn by the
Vontress court verses the legislatures intent. The rules of statut—
ory construction controls. K.S.A. 21—4710(d)(11) is unambiguous,
the legislature was specific in its intent, that a conviction that
is a element of the current conviction or which enhances a current
conviction, CANNOT, be utilized for criminal history purpose.
The Statute does not convey that it can be utilized in the
calculation of primary crime, it conveys that it cannot be utilized
as a element or to enhance a crime, and then again be utilized for
CRIMINAL HISTORY purposes. "Ordinary words are to be given ordinary
meaning, and a statute should not be read so as to add that which
is not readily found therein or to read out what as a matter of ord­
inary English language is found in it." GT, Kansas, L.L.C. v. Riley
County Register of Deeds, 271 Kan. 311, 316 (2001) Furthermore, K.S.A
14

• •

21-4710{a) provides:
"A prior conviction is any conviction, other than another
count in the current case which was brought in the same in­
formation or complaint or which was joined for trial with
other counts in the current case pursuant to K.S.A. 22-3202
and amendments thereto, which occurred prior to sentencing
in the current case regardless of whether the offense that
led to the prior conviction occurred before or after the
current offense or conviction in the current case."
In the current cases in the case at bar (95 CR 1616 and 95
CR. 1859), at waiver of jurytrial in Case No. 95 CR 1616 the follow­
ing agreement between the Court, Prosecution and defense was reach­
ed :
Transcript of Waiver of Jury Trial Case No. 95 CR 1616 (Vol. 2, pg.

( 3 ))• (Appendix-K).
14.

THE COURT: I’ll accept your waiver. And now,

15.
16.

when is the other case set?
MR. KAUFMAN: Janury 22nd of 96.
THE COURT: Is that when you want to set this

17.
18. one? Is that what you all want to do?
MR. KAUFMAN: I think that would be a good idea,
19.
20. Your Honor.
MR ZACHARIAS: I think that is.
21.
THE COURT: Okay, set on January 22nd, nine
22.
23. o'clock in the morning, 1996. That way all your cases
24. will be one date so you can figure out what to do.(Emphasis
added) .
Prior to the January, 22nd, 1996 date the case (95 CR 1616
and 95 CR 1859) was continued until Feburary, 26, 1996. On the 26th
of Feb., 1996 the Jury trial commenced and neither the state nor
court made mention of Case No. 95 CR 1616.
15

V <

Approximately 37-days after the jury trial concluded petit­
ioner was called to a bench trial before former Judge Rebecca L.
Pilshaw and forced to proceed to trial. Although the record of act­
ion report claims that the defense continued the case the district
court record is void of any transcript of a verbal continuance or
any motions filed by the defendant or counsel requesting a continu­
ance in the case. Had there been a continuence in the case it would
have required petitioners personal participation in the continuance
because said continuance would require the waiver of petitioners
Constitutional Right to a Speedy Trial, U.S.C.A. Amend. Sixth.
The district court and’ court of appeals’

for the state of’

Kansas reasoned that although counsel, prosecution and the magistrate agreed to consolidate the case for trial, the cases remained
seperate because one was a benchtrial and the other a jurytrial,
and said cases was tried apart. Neither court looked to the record
to determine why the cases was tried apart, nor did the courts exercise any logic as to why the bench and jury trial could not be tr­
ied together.
There is neither case or statute law which prohibits a jury
and bench trial from being tried together. After the jury retired
each day in the jury trial, the court could have heard testimony
of witnesses in the bench trial. Furthermore once the cases was joined, in order to sever them required a hearing to sever the joiner
wherein petitioner could have been notified of the intent to sever
and be heard on the subject, in compliance with the Due Process
Clause. "It is a fundamental doctrine of law that a party to be
affected by a personal judgment must have his day in court, and
an opportunity to be heard." Renaud v. Abbott,
16

116 U.S. 277, 29

I <

-L.Ed 629, 6 S.Ct. 1194.
The language used by the Kansas Legislature in K.S.A. § 22-3203 "Joined for trial"
denotes joining together. "Join", is defined in Blacks Law Dictionary as: "To unite; to come
together; to combine or unite in time, effort, action; to enter into alliance". (6th ed.). Blacks
Law also defines "Joinder of Indictments or Informations", as: "The court may order two or
more indictments or informations or both to be tried together if the offenses, and the
defendants if there is more than one, could have been joined in a single indictment or
information. The procedure shall be the same as if the prosecution were such single indictment
or information. Fed. R. Crim. P. 13." (Emphasis added).
K.S.A. 22-3203 M governs consolidation for trial of separate complaints or informations:
The court may order two or more complaints, informations or indictments against a
single defendant to be tried together if the crimes could have been j oined in a single complaint,
information or indictment."
n it

" Joinder in the same complaint or information is proper if the crimes charged: (1) are of
the same or similar character, (2) are based on the same act or transaction, or (3) are based on
two or more acts or transactions connected together or constituting parts of a common scheme or
plan. K.S.A. 22-3202(11.
"Consolidation in the instant action rests on the same or similar character of the crimes
involved. State v. Ralls. 213 Kan. 249, 256-57, 515 P.2d 1205 (1973), further delineated the
prerequisites for consolidation under these circumstances:
When all of the offenses are of the same general character, require the same mode of
trial, the same kind of evidence and occur in the same jurisdiction the defendant may be tried
upon several counts of one information or if separate informations have been filed they may be
consolidated for trial at one and the same trial."
t< ii

Kansas Statute and case law echoes the Blacks Law definition ofjoinder. From the plain
and unambiguous language of Kansas Legislature and the j oining of the complaints together for
one trial date, Judge Clark Owens HL, effectively joined the cases pursuant to K.S.A. § 22-3203.

17

'* '

Since plaintiff crimes occurred after the July 1st, 1995 amendment the the benefits of said
amendment was applicable in plaintiffs case.
K.S.A. 22-3204:
"When two or more defendant are jointly charged with any crime, the court may order a
separate trial for any one defendant when requested by such defendant or by the prosecuting
attorney."
Neither the prosecution nor defendant requested a severance of the joined trials pursuant
to the K.S.A. 22-3204. Once Judge Owens III joined the cases for trial, law required a move for
severance in pursuant to the statute. Judge Rebecca L. Pilshaw could not defeat the joinder by
falsefying the record and incerting that the defendant took a continuence. Had
Appellant/defendant requested a continuence it would have required continuing the entire case
[95 CR 1859 and 95 CR 1616]. Throughout the trial and during sentencing Judge Rebecca L.
Pilshaw acted in partiality and with corrupt motives by relying on untrue and false information,
by not requiring the state to prove every essential elements of the crimes charged to convict, and
by stating on the record her own personal interest in seeking charges against Appellant.
Judge Rebecca L. Pilshaw stated for the record:
Partial Transcript ofPreliminary Examination
containing 14-pages,pg-11, lines 10-12:
10.

THE COURT: Thank you. Well I-I am

11.

interested in adding an aggravated sexual battery

12.

charge, and I am adding aggravated sexual battery.

18

(Vol. -1 8)

(Appendix-L) .

n '

Due Process of Law Clause of the 14th Amendment of the United States Constitution
prohibits a judge from setting in judgment on a case wherein he/she has a personal interest. See
28 U.S.C. 455, Also see, Concrete Pipe & Prods, v. Constr. Laborers Pension Trust. 113 S. Ct.
2264:
"Due process requires a "neutral and detached judge in the first instance." Ward v. Village of
Monroeville. 409 U.S. 57. 61-62. 34 L. Ed. 2d 267. 93 S. Ct 80 U972). "That officers acting in a
judicial or quasi-judicial capacity are disqualified by their interest in the controversy to be
decided is, of course, the general rule." Turney v. Ohio, 273 U.S. 510. 522, 71 L. Ed. 749, 47 S.
Ct. 437 ('19271. [****311 Before one may be deprived of a protected interest, whether in a
criminal or civil setting, see Marshall v. Jerrico. Inc.. 446 U.S. 238. 242, 64 L. Ed. 2d 182,100. S.
Ct. 1610. and n.2 (T980T one is entitled as a matter of due process of law to an adjudicator who
is not in a situation ’"which would offer a possible U6181 temptation to the average man as a
judge ... which might lead him not to hold the balance nice, clear and true ... ." Ward, supra, at
60 (quoting Turney, supra, at 5321. Even appeal and a trial de novo will not cure a failure to
provide a neutral and detached adjudicator. 409 U.S. at 61.111 Justice," indeed, must satisfy the
appearance ofjustice, and this stringent rule may sometimes bar trial [even] by judges who have
no actual bias and who would do their very best to weigh the scales ofjustice equally between
contending parties." Marshall v. Jerrico. Inc., supra, at 243."
In light of all the circumstance in this particular case and the presence of a strucual error
of a presence of a bias judge and clearly corrupt motive of denying Appellant the benefits of
K.S.A. 22-3203 and its prohibition of including the current crimes of 95 CR 1616 and 95 CR
1859 in Appellant/defendants criminal history score in sentencing appellant in the current case of
95 CR 1616 and 1859, as well as a lack of evidence to support the cases
being severed or appellant/petitioner waiving the Constitutional
Speedy trial right, this Court should find the previous ruling on
the original disparity is a clear manifest injustice.

said disparity in sentences was
resentencing of codefendant David Upchurch, in Jan • , 2007. Mr.
Upchurch was called back to court for resentence based off the re19

-versal of the Aggravated Kidnapping of Daron Green in Case No.
95 CR 1859. On direct;appeal, the Kansas court of appeals held that
petitioner (Loggins) did not commit aggravated kidnapping, the panel
also acknowledged that the aggravated kidnapping of Jessica Green
was not a kidnapping, but since petitioners counsel attacked 'the
bodily harm element of the kidnapping, instead of arguing there was
no kidnapping the panel upheld the aggravated kidnapping of Jessica
Green which was alleged to have been committed by Mr. Upchurch.
Appendix-(M ), pg-(

See

)i

Former Judge Rebecca L. Pilshaw presided over resentencing
of petitioner on the reversal of the aggravated kidnapping of- Daron
Green. The Judge held that since the aggravated kidnapping of Daron
Green was ran concurrent with the aggravated kidnapping sentence
of Jessica Green, there was no need to resentence petitioner and
upheld the sentence imposed.
The U.S. District Court for the State of Kansas reversed
codefendant (Upchurch) aggravated kidnapping of Daron Green find­
ing that if petitioner did not commit the crime of aggravated kid­
napping of Daron Green, there could be no aiding and abetting on
that offense. See Upchurch v. Bruce, Case No. 01—CV—3196—DES.
At resentencing on Mr. Upchurch, Former Judge Rebecca L.
Pilshaw presided. Therein she granted Mr. Upchurch a downward departure on his conviction of aggravated kidnapping of Jessica Green.
This resulted in Mr. Upchurch serving only 12-years on the crimes
of conviction in Case No. 95 CR 1616 and 95 CR 1859. In petitioners
current motion it was argued the disparity of sentence was enhanced
20

resulting in petitioner being required to serve a sentence 50plusi

years greater than codefendant (Jones) and 40-plus years

greater than codefendant (Upchurch). Thus requiring petitioner
to serve excessive time on crimes committed by codefendants which
the state courts have long since relieved those defendants of the
punishment for the crimes committed.
Neither the district court or court of appeals for the State
Kansas took these factors into consideration. Both courts sought to
invoke the doctrine of res judicata, issue preclusion and finality
litigation. The state argued multiple state cases to support why
these do-ctrines should apply. Although theres no previous ruling.
This Superior Court has long since held, "The conventional
notions of finality of litigation have no place where life or liber-::
ty are at stake and infringement of constitutional rights is alleg­
ed." McClesky y. Zant, 499 U.S. 467. Petitioner presented evidence
that the sentence imposed was by a bias judge whom lacked impart­
iality, and acted with corrupt and arbitrary motives. Likewise,
said judge committed a overt criminal act of obstruction of just­
ice to hide her lack of impartiality. See Vol.-(ll) and Vol.-(18).
Volume-18 was spolitated from Volume-11 and withheld from
petitioner and all petitioner counsel on appeal and postconviction
proceedings Federal and State. Volume—18 consisted of the first 9—
pages, and last 4-page of the preliminary examination. Said record
was spolitated to concealed to hide the conflict of interest bet­
ween petitioner and counsel, and most importantly the Structual
Error, of the presense of a bias'judge at trial. See Appendix-(L) .
21

'* »

The fundamental laws in this country prohibits judges from
setting in judgment of their own case. This Superior Court in In
re Murchison, 349 U.S. 133 (1953) mandated, "No man can be judge
in his own case" adding that "No man is permitted to try cases where
he has an interest in the outcome." Idv at 136, 75 S.Ct. 623, 99
L. Ed. 942. Thus, Judge Pilshaw was prohibited from setting in judg­
ment on the trial let alone the sentencing phase, for she abandon
her neutrality to be a advocate and partisan for the states cases.
See Volume-18, pages-(10-11). Appendix-(L).
"When a judge lose its color of neutraility and tends to ac­
centuate and emphasize the prosecutions case, he or she failed to
play the role of Art. Ill Judicial Officer." U.S. v. Leuth, 807
F.2d 719, 727 (8th Cir. 1986). "Once a trial judge steps outside
the role of detachment, he or she assumes the role of partisan or
advocate. At that point the judge is no longer, nor even appears
to be neutral and impartial." Limitation of Judicial Activism in
Criminal Trials, 33 Conn. L. rev. 243, 273-74 (2000).
The fact that the judge ordered/conspired with the court
reporter to conceal these facts constitutes a crimibal act. See
18 U.S.C. 1512(c)(1). "The destruction of evidence, it constitutes
an obstruction of justice. The destruction or

significant and mean-

ingful alteration of documents1 or instruments. See Application of
Boykins, D.C.N.Y • » 165 F. Supp. 25, 30. "To hide or withdraw from
observation, cover or keep from sight, or prevent discovery." See
People v. Eddington, 201 Cal. App. 2d 524, 20 Cal. Rptr. 122-124.
The law provides such a error of this magnitude cannot be
barred for it effects a substantive due process right. Roger v.
22

» *

Gibson, 173 F.3d 1278, 1289 (10th Cir. 1999). Substantive due pro­
cess right, such may be broadly defined as constitutional gurantee
that no person shall arbitrary deprived of his life, liberty or
property; the essences of substantive due process is protection
from arbitrary and unreasonable action." Babineaux v. Judiciary
Commission, La., 341 So.2d 396, 400.
In the case at bar, the record reflects that Judge Pilshaw
not only knew she was depriving petitioner of a substantive due
process right to an impartial tribunal, but it reflects that she
committed a criminal act to hide the deprivation of the constitut­
ional fight. "To clearly' establish, the contours of a right' 'must
be sufficiently clear that a reasonable official would understand
that what he is doing violates that right." Hope v. Pelzer, 536
U.S. 730, 122 S.Ct. 2508,

153 L.Ed. 2d 666 (2002).

The Presiding judge not only was aware but she allowed her
bias to be manifested in here arbitrary use of False & untrue in­
formation, with out due process to be heard on said information,
falsification of the record to allege that petitioner continued
the case and waived his Constitutional Speedy trial right, and
utilization of the current crimes of conviction as criminal history
in sentence imposed.
Both the district court and court of appeals, ignored all
these factors and did not answer petitioners

manifest injustice

component of the agrument. Although Kansas Court normally apply
the res judicata, issue preclusion and finality of litigation doc­
trines, the Kansas Supreme Court has acknowledged that there is
a narrow exception to the rule.
23

» '

The Kansas Supreme Court discussed and held:
"Nevertheless, with a nod toward the benefits of finality,
"courts have limited their discretion and generally re­
cognized only three exceptions that allow changing the law
of the case. These exceptions apply when (1) a subsequent
trial produces substantially different evidence, (2) a con­
trolling authority has made a contrary decision regarding
the law applicable to the issues, or (3) the prior decision
was clearly erroneous and work a manifest injustice." 18B
Wright, Miller, & Cooper, Federal Practice and Procedure:
Jurisdiction 2d Syl. 4478, pp. 670-72 (2002); see Collier,
263 Kan. 633. (citing federal case for explanation of doc­
trine as applied in Kansas). "The law of the case rule is
- not inflexibly applied to require a court to blindly re­
iterate a ruling that is clearly erroneous." Collier, 263
Kan. at 632.
When as here the prior ruling was clearly erroneous and not
supported by the record of trial, and the prior court did not in­
quire into the facts surrounding the disparity of sentences, the
fact that the sentencing court relied upon misiformation that was
untrue and false, as well as that the current crimes of conviction
which petitioner was being sentenced on was calculated to enhance
the sentence, its substantially support the position that the prior
decision worked a manifest injustice.
Likewise, the fact that said sentence was imposed by a Judge
whose impartiality was in question, whom through capricious and arb­
itrary finding reached the unreasonable decision, as well as denied
petitioner due process of law by not granting the defendant fair
notice of intent'- to utilize those factors at sentence, and allow
the defense to contest them support the position of a manifest in24

>

■

-justice.
Last but not least in support of the position that the prior
decision was so erroneous so as to work a manifest inustice, the
prior court fanciful finding that the trials was not consolidated.
Despite the fact the record support the cases.was consolidated. See
Appendix-(K ). The prior decision makers concluded because one trial
was a bench trial and one was a jury trial, as well as that the
trials was not held together, there was no consolidation.
The court did not support this conclusion with any statute
or caselaw to support its findings. Nor was it inquired as to why
the trials was tried seperately. Had the .court inquired it,would
have found that the sentencing court/trial court committed fraud
upon the court, and that said fraud encroached upon petitioners
Sixth Amendment Constitutional speedy trial right. Said fraud was
accomplish by merely falsifying the record of action to reflect
that the defendant continued the case. When the facts of the case,
and record reeals there was no verbal nor written request (motion),
to continue the case beyond that speedy trial right, filed by the
defendant or on behalf of the defendant.
Kansas Supreme Court has held, "District courts are courts
of record. Their proceedings of significance such as events touching upon the right to speedy trial are to be recorded. The only
safe practice if the interests of the accused, the prosecution and
the public are to be effectively protected is those records shall
control." State v. Higby, 210 Kan. 554(1972) Id. at 558.
The prior decision makers neglected to inquire into the re­
cord, thus allowing it to reach a decision that is contrary to the
facts of the case and arbitrary to the law of the land.
25

V '

The fact that no hearing was held to sever the cases, ithat
neither the defense or prosecution motioned or requested the sever­
ance of the trials in compliance with Kansas Statute to sever (K.S.A.
22-3204), and said severance was accomplished through fraud renders
the judgment of sentence void. FRAUD UPON THE COURT: "fraud in the
procurement of a judgment" sufficient to warrant relief therefrom
is properly identified with "fraud on the court". Browning, 826 F.2d
at 345, also:
"fraud which is directed to the judiciary machinery itself
and is not between the parties .... It is thus fraud where
the court or a member is corrupted or influenced or influence
is attempted or 'where the judge has not performed tiis judic­
ial function - thus where the impartial functions of the
court have been directly corrupted."
In a majority decision by the United States Tenth Circuit
Court of Appeals discussed and held as to this matter, "The major­
ity points out that when a court is defrauded, the judgment never
becomes final. See Maj. Op. at 16 (stating that courts have histori­
cally enjoyed the power to invoke fraud on the court because judg­
ments procured through fraud had never become final); see also
Kenner v. Comm'r, 387 F.2d 689, 691 (7th Cir. 1968) ("We think ....
that it can be reasoned that a decision produced by fraud on the
court is not in essence a decision at all, and never becomes final.")
Because the Judgment never became final, the court can act through
its jurisdiction over the original proceeding. Otherwise, the case
would continue in perpetuity." (quoting United States v. Williams,
790 F,3d 1059 (10th Cir. 2015).(Emphasis added).
Thus, not only was the court corrupt, and impartiality in
question, but the court committed fraud in order to have a trial,
26

> '

and based off said fraud at sentence utilized it to deprive petit­
ioner of the Kansas Legislated Statute Laws of consolidation pursuant to

K.S.A. 22-3203.

The fact that the original (sentencing) court commited fraud
to procure its judgment, permits this court to reach back to exer­
cise the original jurisdiction, and the fact that the prior courts
decision in the case was in error of fact and law, this Court must
find that "the prior decision was clearly erroneous and worked a
manifest injustice", thus meeting the required exception to change
the law of the case.
'

Wherefore, this- court should find in light of the unique

circumstance, facts and intricate laws surround petitioners claims
warrant review of the case, pursuant to the Equal Protection of
the Law Clause mandated of the U.S.C.A. 14th Amend.
III.

Whether petitioner remaining imprisoned on crimes committed

by codefendants, that the Kansas State Courts have long since re­
lieved of the punishment imposed, upon false & untrue misinformat­
ion, (Abuse of Discretion) and afoul to the Fundamental Right to
Due Process of Law, Equal Protections of Law and Constitutional
Speedy Trial right render the sentence a Miscarriage of Justice?
Standard of Review:
"In discussing what constituted "manifest injustice" in a
sentencing case, in State v. Cramer,
P.2d 1111 (1992) , we said:

17 Kan. App. 2d 623, 635, 841

"In a very recent decision, we dealt

with a similar question. Although we concluded that the term

man­

ifest injustice1 as used in the statute was not possible of exact
definition, we said:

A sentence which is "obviously unfair" or
27

I

"shocking to the conscience" accurately and permissibly character­
■ir

izes oiie wtiich would result in manifest injustice.

1 n

State v. Turley,

17 Kan. App. 2d 484, Syl. 2, 840 P.2d 529 (1992).
"In Turley, we concluded that a sentence which ’shocks the
conscience of the court’ is manifestly unjust. This is similar to
saying that, while it is difficult to define ’pornography’, one
will most certainly know it when he or she sees it. While this may
not be an entirely satisfactory definition, we believe it to be the
only definition possible."
"In State v. Torrance, 22 Kan. App. 2d 721, 730, 922 P.2d
1109 (1996), the determination of whether manifest injustice ex­
isted was said to be made on a case—by—case basis under a "shock­
ing to the conscience" that is obviously unfair." In Lloyd v. State,
672 P.2d 152, 155 (Alaska App. 1983), manifest injustice was equat­
ed to mean something that was obviously unfair.
"Other states have used slightly different definitions such
as "miscarriage of justice" (Clay v. Dormine, 37 S.W. 3d 214(Mo.
2000); or "injustice that is direct, obvious and observable."
State v Arnold, 81 Wash. App. 379, 914 P.2d 762, rev. denied 130
Wn. 2d 1003, 925 P.2d 989 (1996).
In the Case at bar, petitioner was arrested at the tender
age of 18 years of age for the residential robbery of two local
drug houses. The> robberies:'is'alleged' to have occurred 6 days apart. Prior to the arrest in this case petitioner had no adult
conviction , and only one Juvenile adjudication, that could be counted.
The State Prosecution allegations was that petitioner and
multiple codefendants committed the crimes in concert.Appendix^(F),
pg-(J^ thus compiling all the charges under a aiding and abetting28

4 -

theory. According to the states case and witness testimony petition­
er was the less culpable defendant, that petitioners codefendants
committed the crime of Aggravated Sexual Battery, Appendix-( F )»
pg-( 383fl) and Aggravated Aggravated Kidnapping of Jessica Green,
Appendix -( F )j page-(3J"^0 •
The Aggravated kidnapping charge resulted in petitioner be­
ing sentence to 453-months imprisonment. Thus equivalent to 37year s , and on the Aggravated sexual battery charge 36-months which
amounts to 3 years. Both these sentences was ran consecutive to all
the crimes that the state alleged that petitioner was the princi-

pal' of.
Petitioner calls to the courts attention the direct appeals
panel on the case admission that the conduct in the case did not
amount to Aggravated Kidnapping, but since appellants counsel argued
that the aggravated sexual battery charge doesn’t support the bod­
ily harm element of Aggravted kidnapping, instead of there was no
kidnapping the panel upheld the charge. See Appendix—( M ), Pg-_(^ )*
On petitioners first state habeas motion, petitioner raised
the claim that appellate counsel was ineffective for failing to
raise the deadbang winner that there was no aggravated kidnapping
citing, Bledsoe v. State, 283 Kan. 81, 88-89, 91 150 P.3d 868(2007),
and Trotter v. State, 288 Kan. 112(2009), which holds ineffective
assistance of appellate counsel establishes exceptional circumstance
warranting raising the claim in a Habeas motion, As for the under­
lining issue concerning no kidnapping occurred, petitioner cited,
State v. Buggs, 219 Kan. at 216, and

State V. Fisher, 257 Kan. at

78 leading authorities on Aggravated kidnapping.
29

X '

The district court refused to hear the claim citing res
judicata, and the court of appeals for the State of Kansas upheld
the district courts finding. See Appendix-( p ), pg.-(

). Both

courts ignored the ’’identical claim” component to invoke the doc­
trine of res judicata. Said component is recognized by the State
of Kansas and all jurisdictions. In Chatagnier, 27 Kan. App. 2d at
310-11, it was reiterated,
apply,

However, "(f)or issue preclusion to

... the previously resloved issue must be ’identical* to

the one presented in current litigation;

Similarity* between the

issues is insufficient." Also see District of Columbia v. Gould,
852 A.2d 50, 56 (D.O. 2004), and 47 Am. Jur. 2d. Judgments 489,
Restatement (Second) Judgments 26(1) (1980).
On petitioners second state habeas motion petitioner argued
that the district and court of appeals ruling on the previous mot­
ion was in error of facts of law thus a abuse of discretion, which
supports an exceptional circumstance warranting relitigating the
claim to prevent a miscarriage of justice. The district court sum­
marily dismissed the motion as sucessive and out of time, the court
of appeals upheld the district courts finding, holding that petitioner arged the previous rule

was in error of law, (Appendix-(Q ),

pg.-( X )), also that petitioner did not raise, the claim in his
first habeas motion, (Appendix-( Q ), pg.-( J

)).

Its obvious the courts did not review the record of the case
for both courts ruled the issue was res judicata on the first mot
ion and appeal. See Appendix-( P ). The court of appeals panel then
reasoned had the court reviewd the issue, it would

rule against

petitioners since the State v. Fisher, supra case is distinguish—
30

1 '

able from petitioners case, because unlike petitioners case the
Fisher, case was not a aggravated kidnapping committed to facilit­
ate another crime.
Again the court did not even review the caselaw cited be­
cause the Fisher, case circumtances, facts and allegation was more
then similar to petitioners case, and could be deemed identical.
The state prosecutor in Fisher, supra alleged that the victims was
kidnapped to facilitate the crime of Aggravated Robbery. See Appendix-( 0 ), pg.-(lX-l5). Thus the Kansas courts not only deprived petit­
ioner of the Equal Protections of Kansas laws, these courts didn't
even give petitioners case the Due Process of Law, nor'due review
that a U.S. Citizen and Kansas Citizen is do. The courts enter rul­
ings and issued orders void of record support and in contradiction
to Kansas Supreme Court Precedent, and the record of the case.
Petitioner further calls the Courts attention to the fact
that in 2002 the United States District Court for the State of Kan­
sas reversal of the the Aggravated kidnapping of Jessica Green in
petitioners codefendant case, finding that the conduct did not a—
mount to aggravated kidnapping. See Appendix-(

R ), pg.-(\l-\5)«

On appeal therefrom, the United States Court of Appeals for
the 10th Circuit, reversed the district court on that charge, find­
ing that Kansas Kidnapping laws is ambiguous so its unclear whether
the conduct constituted aggravated kidnapping. See Appendix-( S ),
pg.-(W-VL).

The 10th Cir. Court of Appeals ignored its on holding

in Messer v. Roberts, 74 F.2d 1009 (10th Cir.
-( T ) * Pg •-(

)•
31

1996). See Appendix^

•I *

This ruling by the 10th Cir. Court of Appeals effectively
held that petitioner could be held in prison for 37 years on a
crime in which the laws of the state of Kansas being ambiguous as
to what actually constitutes Aggravated kidnapping. The state courts
then simply continued to hold that the issue is res judicata/issue
preclusion. Thus., legitamizing holding a American Citizen in prison
for a crime

6f which his guiltisnAot well established beyond a rea-

sonable doubt in compliance with the 14th Amend., of the U.S.C.A.
Surely,

its is 'Shocking to the conscience' and 'obviously

unfair' to deprive an American Citizen of liberty on a crime that
the law does not clearly support his’guilt beyond a reasonable doubt
of. In this instance, petitioner is alleged to have been an aider
and abettor of the charge, whereas codefendant Upchurch was the al­
leged principal of the charge. The original sentencing court found
that in light of these circumstance cited herein and other factors
a downward departure was appropiate in the case and released Mr.
Upchurch after 14 years in prison.
However, the aider and abettor (Petitioner) has remained
in prison 12 years later on the crime that the state alleged Mr.
Upchurch commited, with a standing outdate of 2045. This must be
deemed to meet the 'shocking to the conscience'/'obviously unfair
standard.
Likewise, the states case alleged that codefendant Mr. Jones
committed the crime of Aggravated sexual battery with the intent to
arouse his sexual desire. See Appendix-( F ), pg-Cm-m). Petitioner
was charged with aiding and abetting the crime under the theory that
it was reasonable forseeable to petitioner that an aggravated sexual
32

}

battery would occur.
The jury was told that it need not find any essential element
of the crime of aggravted sexual battery, nor that petitioner shared
in codefendant Jones intention. See Appendix-( F ), pg.-(41-4%.) • That
the law supports finding of guilt since a sexual crime often occurs
at night time. Thus, relieving the state of its duty to establish
its case beyond a reasonable doubt on every essential element to
convict, as well hold that guilt could be established on intuition.
This Superior Court in In re Winship, 397 U.S. 358, 363-64,
90 S.Ct. 1068, 1072-73, 25 L -.'Ed. 2d 368 (1970), ("intuition cannot
Substitute for admissible evidence when a defendant is on trial ).
In U.S. v. Batts, 811 F. Supp. 625 (D. Kan. 1993), the U.S. District
court rejected a similar theory citing multiple Circuit Courts and
even this Superior Court therein. The Court ultimately held, "The
court believes that use of the "reasonably foreseeability" standard
in the instruction was erroneous. By use of these words, the court
permitted the jury to convict Batts upon a negligence standard rat
her than a criminal standard. See United States v. Pope, 739 F.2d
289, 292 (7th Cir. 1984); United States v. Greer, 467 F.2d 1064,
1069 (7th Cir. 1972), cert. denied 410 U.S. 929, 35 L.Ed 2d 590,
93 S.Ct. 1364 (1974). "A negligence standard would not support
the imposition of criminal liability on the principal, and it
should likewise not support accomplice liability. See generally
W. LaFave & A. Scott, Criminal Law syl. 6.8, at 590." Id at 628.
In the Case at bar the State admits that theres no. evidence
the crime was plan, See Appendix-( F ), pg-—(Ml )» nor does the
state allege that the aggravated sexual battery was commited in ;
33

—furtherance of the intended crime of Aggravated robbery.
This result in a classic case of "manifest miscarriage of
justice standard". The 11th Circuit Court of Appeals for the U.S •»
defiined ' said standard as, The "manifest miscarriage of justice"
standard has been interpreted by this court "to require a finding
that

the evidence on a key element of the offense is so tenuous

that a conviction would be shocking i

tt

. United States v. Tapia,

761 F.2d 1488, 1491-92 (11th Cir. 1985)(quoting United States v.
Landers, 484 F.2d 93, 94 (5th;vCir. 1973), cert, denied, 415 U.S.
924, 94 SiV-Ct. 1428, 39 L.Ed. 2d 480 (1974).
In the cash at bar, its not’whether the evidence is tenuous
on one element but on all elements. This Superior Court have mand
ated and consistently held, "a conviction based upon a record whol­
ly devoid of any relevant evidence of acritical element of the of­
fence charged is constitutionally infirm." Vachon v. New Hampshire,
414 U.S. 478; Adderly v. Florida,

385 U.S. 39; Gregory v. Chicago^

394 U.S. Ill; Douglas v. Buder, 412 U.S. 430. The "no evidence"
doctrine of Thompson v. Louisville, 362 U.S. 199, thus secures to
an accused the most elemental of due process rights:

"freedom from

a wholly arbitrary deprivation of liberty".
Petitioner calls the Courts attention to this factor, simply
to emphasis the

shocking to the conscience 1/1 obviously unfair'

com-

ponent of this claim. Because to hold a man liable for a charge the
law does not support has to establish "UNFAIRNESS". Further emphasizing this component as to the aggravted sexual battery charge , is
the fact, that the state did not charge codefendant Jones (the alleged principal) or codefendant Upchurch with the charge.
34

1-. ^

Despite the states accusations that when the crime of Agg.
sexual battery occurred the only people present was codefendants
Jones and Upchurch and the victim. See Appendix-( p ), Pg.-(3V3$).
The victim testified that when she was sexually assaulted that pet­
itioner was in the apartment with her husband.

Its clearly *Shocking to the conscience*/* obviously unfair*
that the principal and other codefendant that was alleged physical­
ly present when the crime occurred was never charged with the crime,
but petitioner was the only one charged with said crime. That the
’jury was told they need not find an7 elements of the'crime to con­
vict, and as a result petitioner can be labeled as a SEX OFFENDER
for the rest of his life, required to register as such, and pay $25
everytime registry is required, as well as be deprived of other
constitutional rights. See Loggins . Norwood, Case No. 20-3009, a
related case pending before the United States Court of Appeals for
the Tenth Circuit for full panel review.
This Court should find that requiring petitioner to remain
in prison on a crime that the principal and all other codefendants
was never charged with, stigmatized as a sex offender, ordered to
attend a sex offender treatment program, and to register as a sex
offender upon release, with the requirement to pay quarterly fee’s
to register or face criminal conviction for failure to register, in
light of the facts and circumstances of this case is ’Shocking to
the conscience

and ’Obviously unfair’.

Wherefore the Court should find, if it was not for the un­
reasonable and UNCONSTITUTIONAL find of guilt upon the charges the
sentence would be extremely different. That since the sentence im—
35

w

-posed through arbitrary and capricious means by a clearly bias
judge whose impartiality was in question, whom committed a criminal
act of obstruction of justice to hide her lack of impartiality, that
the sentence is a MANIFEST MISCARRIAGE OF JUSTICE.
CONCLUSION

This Superior Court should find that in light of all the facts
in the case at bar, the issuing of the writ is necessary to protect
petitioners fundamental constitutional rights and to vindicate said
fundamental rights. Find that a sentence based upon misinformation,
, false & untrue is repugnant to the, Due Process Clause, XIV. Amend.,
U.S.C.A., Townsend v. Burke, 334 U.S. 736, id. at 741.
This Superior Court should find that the under the unique
facts of the case at bar the disparity in sentences between petit­
ioner and codefendants is unreasonable, unjustified and unjust.
That the previous courts did' not rule on petitioners disparity in
sentences claims, thus issue preclusion/res judicataddoesn11 apply.
That

denying petitioner the benefits of K.S.A. 22-3203 amounts

to a denial of equal protection of the law. Furthermore, find that
Kansas Statute law does not require a actual trial in order to re­
ceive the benefits of the consolidation law (K.S.A. 22—3203).
The statute simply requirs that the cases be consolidated
by the court. State v. Taylor, 262 Kan. 471 (1997), (Three cases
that was consolidated for trial which the defendant plead out to.
Thus, no trial was held yet he reaped the benefits of the

consolidat-

ion laws). The Court shouldhold the severance of the case was based on36

^ r*

w

fraud upon the court, by a bias judge, deprivation of the statute
benefits cannot be withheld from petitioner. Last but not least
since the previous courts made a error of law, basing its decision on
facts not supported by the the evidence its decision was unreason­
able, Longoria, 301 Kan. at 509, thus,.its prior ruling worked a
manifest injustice, and warrant changing of the law of the case.
Collier, 263 Kan. 633.
This Court should find that under the facts of this case
the fact that the Kansas State Courts sentence petitioner to great­
er than 50 years, a miscarriage of justice has occurred. In the State
' of Kansas a Hard'-50 sentence is reserved for defendants that commit '
the most heinous of murders. So the fact that the sentencing court
sentenced petitioner whom only had one prior juvenile adjudication,
prior to sentencing in these cases to a sentence 6-years greater
than a Hard-50 sentence, is unjustified considering the states al­
legations of petitioners culpability in these crimes.
The Court should find that the fact that the most culpable
defendants in the case have been relieved of the sentences imposed
over decades now, enhances the Miscarriage of justice in this case,
and the fact that by Kansas law the crniimies in which petitioner re­
mains in prison on as the accomplice to are by statute and caselaw
definition not ny-. supported by the facts and conduct in this case.
The Court should last but not least find that petitioner has
a Due Process right to a sentence by an impartial tribunal (judge),
and the fact the record reveals that petitioner was sentenced by a

37

-bias judge whom based the sentence upon false/untrue information,
procurement of judgment by fraud upon the court and whom committed
a crime of obstruction of justice to hide her bias , warrants a re­
versal of the sentence, and remand for resentencing.

Respectfully Submitted,
levin D. Loggins Sr.

Certificate of Service
I, Kevin D. Loggins Sr., hereby certify under penalty of
perjury the forgoing Writ of Cert • » was deposited in the institutional mailing system at HCF, in Hutchinson, Kansas on this
of

&

* 2021 postage prepaid and addressed to the following:

Sedgwick County DA
535 N. Main St.
Wichita, Kansas 67504

Sr.
P . 1—
1
% .t i\____
Kevin D. Loggins Sr

38

day

